               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




        Postal Service Pricing Strategy

                       Audit Report




                                              December 9, 2011

Report Number CI-AR-12-002
                                                                     December 9, 2011

                                                     Postal Service Pricing Strategy

                                                        Report Number CI-AR-12-002




IMPACT ON:
Pricing management, existing                WHAT THE OIG RECOMMENDED:
customers, new customers, and               We recommended the Postal Service
employees.                                  develop a strategic plan to simplify
                                            pricing supported by real-time volume
WHY THE OIG DID THE AUDIT:                  and revenue data as envisioned by the
Our initial objective was to determine an   Postal Accountability and Enhancement
effective alternative option(s) to the      Act of 2006 allowing management to
U.S. Postal Service’s current pricing       make competitive decisions in the
strategy. As our work progressed, we        market place. In addition, we
modified our objective to determine the     recommended developing and
Postal Service’s adequacy and agility for   implementing an optimized, modern
managing existing prices and                pricing structure to reduce barriers to
introducing new prices to ensure cost       new market entrants and promoting
coverage and protect revenue.               ease of use.

WHAT THE OIG FOUND:                         WHAT MANAGEMENT SAID:
There are over 7,600 domestic prices        Management agreed there is room for
for the three product lines and almost      simplification of price tables in products
50 percent of these prices contain low to   heavily used by consumers and it has
no mail volume. In addition, customers      plans to implement simpler pricing
must use a Domestic Mail Manual that is     options in January 2012. Additionally, it
more than 1,700 pages in order to do        is currently reviewing its costing
business with the Postal Service. Also,     systems and revenue and volume
quarterly volume and revenue data used      reporting and has chartered an initiative
to support product pricing is               to optimize pricing.
approximately 140 days old. The Postal
Service relies on statistical sampling      AUDITORS’ COMMENTS:
data, because the data cannot be            Management’s comments are
completely obtained from its accounting     responsive to the recommendations and
systems. By comparison, its domestic        the stated corrective actions should
competition has easily available real-      resolve the issues identified in the
time product data.                          report.

                                            Link to review the entire report
December 9, 2011

MEMORANDUM FOR:             MAURA ROBINSON
                            VICE PRESIDENT, PRICING




FROM:                       Mark W. Duda
                            Assistant Inspector General
                             for Audit

SUBJECT:                    Audit Report – Postal Service Pricing Strategy
                            (Report Number CI-AR-12-002)

This report presents the results of our audit of the Postal Service’s Pricing Strategy.
(Project Number 10YG015CI000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael L. Thompson, director,
Planning, Innovation, and Optimization, or me at 703-248-2100.

Attachments

cc: Paul Vogel
    Corporate Audit and Response Management
Postal Service Pricing Strategy                                                                                     CI-AR-12-002



                                            TABLE OF CONTENTS
Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Barriers to Entry .............................................................................................................. 2

Old Systems Relying on Statistical Sampling .................................................................. 3

Prices Not Used .............................................................................................................. 5

The Postal Service Does Not Have a Strategic Plan for Pricing ...................................... 6

Postal Rate Making Has Not Fundamentally Changed ................................................... 6

OIG Sample Pricing Table............................................................................................... 7

OIG Pricing Blog ―Reducing the Number of Prices‖......................................................... 8

Recommendations .......................................................................................................... 8

Management’s Comments .............................................................................................. 8

Evaluation of Management’s Comments ......................................................................... 9

Appendix A: Aditional Information ................................................................................. 10

   Background ............................................................................................................... 10

   Objective, Scope, and Methodology .......................................................................... 11

   Prior Audit Coverage ................................................................................................. 12

Appendix B: Fiscal Year 2010 Revenue, Pieces, and Weight Information .................... 13

Appendix C: OIG Sample Pricing Table ........................................................................ 14

Appendix D: OIG Pricing Blog ―Reducing the Number of Prices‖ .................................. 16

Appendix E: Management’s Comments ........................................................................ 17
Postal Service Pricing Strategy                                                     CI-AR-12-002



Introduction

This report presents the results of our audit of the Postal Service’s Pricing Strategy
(Project Number 10YG015CI000). Our initial objective was to determine an effective
alternative option(s) to the Postal Service’s current pricing strategy. As our work
progressed, we modified our objective to determine the Postal Service’s adequacy and
agility for managing existing prices and introducing new prices to ensure cost coverage
and protect revenue. We plan to follow this project with additional analysis of the
complexities of the Postal Service’s mail acceptance and preparation process as
described in the Domestic Mail Manual1 (DMM). This self-initiated audit addresses
strategic risk. See Appendix A for additional information about this audit.

The Postal Service delivers over 170 billion2 letters, flats, and parcels annually and
identifies its mailing standards and pricing rates in the DMM. The DMM is over
1,700 pages and contains all rates and standards governing mailing services. Included
in the DMM is the Price List, Notice 123, which lists more than 10,000 domestic and
international prices the Postal Service charges for three primary product lines: letters,
flats, and parcels, along with additional services such as insurance, delivery
confirmation, and certified mail.

Conclusion

In this time of decreasing mail volume, any unnecessary barriers to entry for Postal
Service customers and new entrants should be reduced or removed to encourage mail
use. There are over 7,600 domestic prices for the three primary product lines (letters,
flats, and parcels) and almost 50 percent of these prices contain low to no mail volume.
In addition, customers must use a DMM that is over 1,700 pages and continually
growing in order to understand how to do business with the Postal Service. Major
mailers use software packages to determine the postage for their mailings because of
the complexity of Postal Service pricing. We believe customers should not have to use
software to calculate their own postage. This complexity does not make it easy to do
business with the Postal Service. The DMM needs to be made radically more customer-
centric.

The reverse is also true — it is difficult for Postal Service employees to transact
business with customers because of this complexity. With so many prices and rules,
clerks are challenged to ensure prices customers pay are accurate and often customers
know more about prices than the clerk responsible for collecting correct postage.
Handbook DM-1093, the manual that explains to Postal Service employees how to
process mail from large commercial mailers, is over 200 pages long. Difficulty in
understanding and applying such complex rules and rates results in revenue assurance
issues.


1
  Mailing Standards of the United States Postal Service, updated October 4, 2010.
2
  United States Postal Service Annual Report 2010.
3
  Business Mail Acceptance.
                                                         1
Postal Service Pricing Strategy                                                    CI-AR-12-002




There is also a lack of real-time daily volume and revenue data for management’s use.
Quarterly volume and revenue data used to support product pricing is approximately
140 days old before it is available to management. This delay in volume and revenue
data is due to the Postal Service’s reliance on statistical sampling data because the
data cannot be completely obtained from Postal Service accounting systems. By
comparison, its domestic competition has easily available real-time product data.

Surprisingly, the methodology used by the Postal Service to ensure cost coverage and
support prices is much the same methodology as initially established following the
Postal Reorganization Act (PRA) of 1970, which established a postal ratemaking
process built around an independent regulatory commission. The Postal Accountability
and Enhancement Act of 2006 (the Postal Act of 2006) streamlined the pricing and
classification process to increase predictability and reduce administrative burdens on all
parties. The Postal Act of 2006 allows flexibility for pricing and the price adjustment
process, yet the Postal Service has not made significant changes in the nearly 5 years
since the law was passed.

The Postal Service has used pricing flexibilities, with the flat rate box campaign and,
more recently, the Marketing Mail Made Easy/Every Door Direct Mail-Retail™
campaign. Recently, the Postal Service has shown success in new simple shipping
programs. The Postal Service’s president and chief marketing/sales officer said
―…when we make it simple to mail, our customer’s will do business with us.‖ These
initiatives appear promising, but the Postal Service should fully explore pricing
simplification and flexibilities to determine their potential. For instance, the U.S. Postal
Service Office of Inspector General (OIG) proposed a Sample Pricing Table which could
reduce the total number of domestic prices by 97 percent.

The current pricing structure is complex and the methodology for ensuring that prices
cover costs has not kept pace with the available technology. The Postal Service has not
fully explored using the flexibilities granted in the law, and it does not have a strategic
plan for pricing to take advantage of the flexibilities of the Postal Act of 2006. Thus, it is
difficult to price new products, ensure prices provide appropriate incentives to effect
revenue growth, and have effective strategic pricing in the marketplace. Changes are
needed to support mail volume growth and increase revenue.

Barriers to Entry

Barriers to entry for Postal Service customers and new entrants should be reduced or
removed to encourage mail usage. Major mailers use software packages to determine
the postage for their mailings because of the complexity of Postal Service pricing.
Mailers need softwares because there are over 7,600 domestic prices for the three
primary product lines and a DMM with over 1,700 pages. The prices and the DMM
continue to grow with each update.




                                              2
Postal Service Pricing Strategy                                                                         CI-AR-12-002



Also, Postal Service employees may not fully understand the current complex pricing
structure. Postal Service managers use Handbook DM-109 (consisting of over
200 pages) and the internal Acceptance and Verification Job Aids, with an additional
90 pages, to explain to Postal Service employees how to process incoming mail. Recent
OIG audits4 determined that Postal Service employees did not always perform the
required verifications or reviews to ensure the mail was properly prepared or was
eligible for the rate claimed. These mail verification mistakes result in lost revenue and
productivity. We will be exploring the associated complexities in mail preparation
requirements more comprehensively in a subsequent audit project.

Old Systems Relying on Statistical Sampling

The data required to provide volume and revenue information cannot be completely
obtained from Postal Service accounting systems because they do not identify all the
specific categories of mail or contain volume and weight information. The accounting
systems information is supplemented with statistically projected data from the Origin
Destination Information System – Revenue, Pieces, and Weight system (ODIS-RPW).
ODIS-RPW information is produced on a quarterly and annual basis and is considered
95 percent statistically reliable. The forecasted statistical data takes about 140 days to
produce from the beginning of each quarter to the time the reports are available. The
lack of timely volume and revenue data and the lengthly lead time to implement pricing
changes does not provide the Postal Service the ability to effectively respond to a
rapidly changing market or to ensure it is meeting organizational goals.

Without near real-time volume and revenue data for products, it is unlikely management
can ever manage prices/products effectively. Assuming a price/product could be
appropriately priced to generate new revenue and cover costs, unknown changes in
volume or revenue could indicate that a product thought to be profitable has actually
become unprofitable.

Domestic competitors have real-time data to support their extensive pricing levels,
unlike the Postal Service. These competitors use barcode scanners to read every
mailpiece barcode, allowing for daily real-time updates for all mailpiece locations. One
competitor can scan each piece at least 12 times from pick-up to delivery. Individual
price per piece information would allow competitors to determine the profitability of each
piece on a daily basis. This, in turn, would allow for informed management decisions
about existing and proposed prices. Both of the large domestic competitors have
significantly more prices in their schedules than the Postal Service; however, they have
data systems that are able to support such schedules.


4
 Fiscal Year 2010 Financial Installation Audit – Mountain Home Business Mail Entry Unit – Mountain Home, AR
(Report Number FF-AR-10-125, dated March 15, 2010);, Fiscal Year 2010 Financial Installation Audit – Tyler
Business Mail Entry Unit – Tyler, TX (Report Number FF-AR-10-077, dated January 15, 2010);, Fiscal Year 2009
Financial Installation Audit – Asbury Park Business Mail Entry Unit – Asbury Park, NJ (Report Number FF-AR-09-
106, dated February 27, 2009); Fiscal Year 2009 Financial Installation Audit – Glen Mills Business Mail Entry Unit –
Glen Mills, PA (Report Number FF-AR-09-128, dated March 25, 2009).




                                                          3
Postal Service Pricing Strategy                                                                 CI-AR-12-002



The Postal Service does not have the systems necessary to provide the detailed data
like its competitors, thus, it is challenging to support extensive, complex pricing
structures and a variety of pricing options.

Management said they use quarterly volume and revenue data as the main inputs for
their annual pricing models. However, they stated there is also daily data available for
approximately 65 percent of the total mail volume through PostalOne!. However,
management does not use this daily data.

As a result of inadequate or unavailable volume and revenue data, the Postal Service’s
efforts to sustain and/or generate revenue with existing and potential customers may be
ineffective. Specifically, the following recent examples indicate some of the challenges
and risks in product pricing, due in part to the following data limitations:

    The fiscal year (FY) 2009 Standard Mail Volume Incentive Program (―Summer
     Sale‖) offered a 30 percent credit to customers for additional volume mailed over a
     specified threshold. The Postal Service could not confirm standard mail volumes
     that mailers claimed were mailed.5

    For FY 2009, 14 market-dominant products and services did not cover attributable
     costs, collectively losing in the aggregate $1.7 billion.6 In September 2010, the
     Postal Service rejected an OIG recommendation to develop a plan for products to
     cover their costs and contribute to overhead. Management disagreed with this
     recommendation to the extent that a ―detailed transparent plan, with established
     milestones,‖ implies that once such a plan is established, the Board of Governors
     cannot fulfill their statutory duty to balance all relevant considerations in
     establishing prices.7 However, best practices, along with the dire financial position
     of the Postal Service, suggest it would be prudent to provide the Board of
     Governors with strategies and options for each product that is not covering costs so
     they can carry out their decision-making responsibilities.

    In September 2009, the U.S. General Services Administration (GSA) awarded a
     contract for express and ground domestic delivery services to United Parcel Service
     (UPS) of America, Inc. The GSA anticipated the contract would save taxpayers
     more than 1 billion dollars over 5 years by offering shipping costs at deep
     commercial retail rate discounts. The ability of UPS to track each package means
     they are able to offer services the Postal Service cannot. For example, UPS is able
     to provide reports on spend and savings which helps track progress toward meeting
     goals established by the Office of Management and Budget.

    In April 2008, the Postal Service implemented a Negotiated Service Agreement with
     the Bank of America Corporation designed to pay incentives primarily for

5
  FY 2009 Standard Mail Volume Incentive Program, page 2 (Report Number FF-AR-10-196, dated July 16, 2010).
6
  Postal Regulatory Commission (PRC) FY 2009 Annual Compliance Determination, page 6.
7
  Impact of Postal Accountability and Enhancement Act Price Caps, page 17 (Report Number CRR-AR-10-005, dated
September 27, 2010).


                                                      4
Postal Service Pricing Strategy                                                                  CI-AR-12-002



     improvements to the read/accept rates of its mail. However, the baseline data used
     to determine the improvements was 1999 system-wide data, not specific to the
     corporation.8 Since read/accept rates for mail processing equipment have improved
     in the intervening years, the 1999 rates did not provide a valid baseline for the
     agreement.

    In February 2008, the Postal Service proposed giving mailers a 1.4 cent workshare
     discount for pre-barcoding non-automation machinable mixed automated area
     distribution center letters9. Postal Service letter-sorting equipment can readily apply
     the barcodes in the course of processing this mail, at a cost of only 0.3 cents per
     mailpiece.10 As a result, the PRC approved the discount but lowered it by 1.1 cents
     to 0.3 cents. Management told the OIG this change impacted only 733 million
     pieces of Standard Mail, with a total monetary impact of about $8 million annually.

Prices Not Used

The Postal Service has over 7,600 domestic prices for three primary product lines:
letters, flat mailings (such as magazines and catalogs), and parcels. The complexity of
the prices can overwhelm Postal Service employees and rate payers and discourage
new customers. This complexity also reduces the Postal Service’s ability to act quickly
in response to the ever-changing market.

The OIG found that in FY 2010, 2,361 domestic prices (31 percent of the 7,600
domestic prices) were not used. In addition, 1,237 domestic prices (17 percent of the
7,600 domestic prices) had a volume of less than 10 pieces. Therefore, almost half of
the over 7,600 domestic prices are not used by customers or have low mail volume.

A company’s price, whether it is high or low, can be as much a part of a brand’s identity
as the product itself. Offering so many prices, with so many not being used, can add
another unnecessary barrier to entry.

See Appendix B for FY 2010 Revenue, Pieces, and Weight (RPW) information broken
down by revenue and piece percentage.




8
  PRC Docket Number MC2007-1.
9
  Letters that are for delivery in the service area of more than one automation area distribution center.
10
   PRC Order Number 66, Review of Postal Service Notice of Market Dominant Price Adjustment, pages 33-34,
March 17, 2008.


                                                      5
Postal Service Pricing Strategy                                                      CI-AR-12-002



The Postal Service Does Not Have a Strategic Plan for Pricing

The Postal Service does not have a strategic plan or mission statement for pricing. In
addition, Postal Service strategic documents such as The Strategic Transformation Plan
2006 – 2010, Vision 2013, and Ensuring a Viable Postal Service for America: An Action
Plan for the Future do not include strategic plans for pricing. A mission statement
defines an entity’s reason for existence. A strategic plan or mission statement should be
a clear and succinct statement of management’s purpose for postage and associated
costs.

Management provided the vice president’s role mandate and a pricing optimization
strategic initiative for our review. These documents are part of an ongoing Postal
Service-wide strategic initiative process. The role mandate, although detailed, is about
the individual and shared accountability of the vice president and is not a pricing
strategy. The strategic initiative is part of an overall portfolio of initiatives to return the
Postal Service to financial viability and is not directly related to a separate pricing
strategy.

A pricing strategy would help the Postal Service position itself in the marketplace,
differentiate the value of its products from those of the competition, and help it
understand its data management needs to be competitive. Any entity that attempts to
operate without a strategy or a mission statement runs the real risk of being unable to
verify that it is on course.

Management told us that ―…the idea of a pricing plan, separate from a broader
discussion of product strategy, is of little use.‖ They view prices, price changes, and
pricing structures as aspects of mail products and a pricing strategy as one element of a
wider product goal. This wider view by Postal Service management is also not part of a
strategic plan or mission statement.

Postal Rate Making Has Not Fundamentally Changed

The overall rate-making methodology still used internally by the Postal Service to
ensure cost coverage and support prices is much the same methodology as initially
established following the PRA. The PRA contains certain guidelines to establish postal
rates including the requirement that rates be fair and equitable and cover the cost of
operating the Postal Service.

The Postal Act of 2006 streamlined the pricing and classification process to increase
predictability and reduce administrative burdens on all parties. It also modified the rate-
setting methodology to limit price increases for market-dominant mail classes to the
annual inflation rate, while providing new flexibility in competitive pricing for shipping
services.

The Postal Act of 2006 requires market-dominant product price increases to be tied to
the Consumer Price Index (CPI) price cap. It also requires the PRC to monitor the



                                                6
Postal Service Pricing Strategy                                                                            CI-AR-12-002



Postal Service’s rates for market-dominant and competitive products. Aside from these
requirements, it does not provide additional pricing guidelines for the Postal Service.

Based on issues we have identified above, and other possible barriers affecting the
Postal Service and its current pricing structure, the OIG reviewed the Postal Act of 2006
to determine whether the Postal Service is able to redesign or implement a new cost
model to determine its attributable costs for pricing. The OIG notes that nothing in 39
U.S.C. would prevent the Postal Service from devising a new set of cost models and
pricing models, as long as:

    The pricing structure for market-dominant products remains tied to the Consumer
     Price Index for Urban Consumers (CPI-U), as required by 39 U.S.C. §3622(d).

    The competitive product pricing structure is able to cover ―costs attributable.‖

    The new pricing methodology would not allow for any cross subsidization among
     the classes of products (39 U.S.C. §3631).

The U.S. Code is written in a fairly broad manner, allowing the Postal Service, in
conjunction with the PRC, to develop regulations that explicitly outline any new cost
pricing model.

OIG Sample Pricing Table

As a part of our audit work, we developed a Sample Pricing Table based on averaging
and combining existing Postal Service prices. In our sample pricing table, we began by
pricing letters and flats by weight (ounces) and parcels by using a flat rate box size
concept. We used flat rate box pricing as a model, because of its recent success in
increasing revenue. As the vice president, Shipping Services, noted; ―. . .flat rate boxes
continue to attract business and residential shippers. . .[and]. . .they’re a key revenue
generator.‖11

The sample pricing table reduces the total number of domestic prices by 97 percent for
letters, flats, parcels, and additional services, in part, by averaging some of the current
rates in an attempt to simplify the pricing structure. This type of proposed pricing is an
option the Postal Service could consider to reduce pricing complexity. We were unable
to find any information in the Postal Act of 2006, the DMM, the U.S. Code, or the Code
of Federal Regulations that would prohibit the averaging of rates, as long as the
average rates cover the attributable costs12. We also recognize that there are always
perceived winners and losers when pricing changes are made.

During the audit, management agreed that unnecessary complexity is undesirable and
should be eliminated, consistent with the Postal Service’s strategic priorities, including
reducing cost, encouraging volume growth and retention, and improving efficiency. The

11
  USPS NewsLink. November 29, 2010, ―Anything but Flat, Flat Rate Box Enjoys a Record-Setting October.‖
12
  The Postal Act of 2006 defines ―costs attributable‖ as the ―direct and indirect postal costs attributable to such
product through reliably identified causal relationships.‖ See 39 U.S.C. § 3631(b).


                                                            7
Postal Service Pricing Strategy                                                 CI-AR-12-002



Postal Service is currently reviewing its costing systems and revenue and volume
reporting and has chartered an initiative to optimize pricing.

OIG Proposed 240 Domestic Prices vs. Postal Service 7,626 Domestic Prices

 Prices                           Letters       Flats         Parcels            Total
 Notice 123                        281          580            6,765            7,626
 OIG Sample Prices                  65           71             104              240

See Appendix C for additional information about the OIG Sample Pricing Table.

OIG Pricing Blog “Reducing the Number of Prices”

The OIG uses blogs to gather ideas from Postal Service employees and customers,
colleagues in the Inspector General community, colleagues from other national
Postal Service audit and investigative organizations, and the general public. We do this
to make our audits as open and transparent as possible and we encourage
stakeholders to participate on our audits, whenever possible.

Our blog was titled "Reducing the Number of Prices." Overall, the blog had
128 respondents, with 89 percent indicating the Postal Service should streamline the
DMM and pricing. Further, one blogger commented that the Postal Service’s price
structure was mimicking the U.S. Tax Code. Also, mailers, employees, and the public
do not understand all the prices the Postal Service offers.

See Appendix D for OIG Pricing Blog.
Recommendations

We recommend the vice president, Pricing:

1. Develop a strategic plan to simplify pricing that is supported by real-time volume and
   revenue data as envisioned by the Postal Act of 2006 to allow management to make
   competitive decisions in the market place.

2. Using a simplified cost pricing system and real-time data, develop and implement an
   optimized, modern pricing structure as part of an overall methodology to reduce
   barriers to new market entrants and promote ease of use by existing customers and
   Postal Service employees.

Management’s Comments

Management agreed there is room for simplification of price tables in products heavily
used by consumers and it should strive to eliminate unnecessary complexity.
Management responded to recommendation 1 stating the Postal Service has plans to
implement simpler pricing options in January 2012. Additionally, it is currently reviewing
its costing systems and revenue and volume reporting and has chartered an initiative to


                                            8
Postal Service Pricing Strategy                                                CI-AR-12-002



optimize pricing, which management believes will lead to programs that identify
additional simplification opportunities. Regarding recommendation 2, management
stated the Postal Service is currently reviewing its costing systems and revenue and
volume reporting and has chartered an initiative to optimize pricing. Additionally,
management believes current programs and recent actions also address the ease of
use issues raised in our report.

Management further stated the Postal Service is actively implementing programs to
simplify and streamline its product offerings. However, management believes there is
value in maintaining options for customers–specifically large commercial mailers–who
are willing and able to manage mailing logistics, as they help them to cooperatively
manage mailing costs. Management also recognized that its data systems do not
provide the maximum potential level of data granularity and that they could use
increased granularity to support pricing and cost analysis. Management stated,
however, the additional benefit derived from the additional data must be weighed
against the additional cost the Postal Service would incur to collect it. See Appendix E
for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions should resolve the issues identified in the report. In
reference to management’s comments, the Postal Service agrees that it should strive to
eliminate unnecessary complexity and plans to implement simpler pricing options in
January 2012 and in subsequent annual price changes. They are currently reviewing its
costing systems, revenue, and volume reporting in an effort to optimize pricing.

The OIG considers both recommendations significant and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                            9
Postal Service Pricing Strategy                                                 CI-AR-12-002



                                  Appendix A: Aditional Information

Background

The Postal Service is an independent agency of the U.S. government, responsible for
providing postal service in the U.S. It is one of the few government agencies explicitly
authorized by the U.S.Constitution.

In the middle of the 19th Century, the Post Office Department (POD) changed the rate
structure based on the number of sheets in a letter and the distance a letter traveled. In
1863, the Congressional legislation created a mail rate for each half-ounce of the
mailpiece’s weight. This was the first law to establish a uniform rate, regardless of the
distance traveled, thus, providing universal service to customers regardless of their
domestic location. The law also created three classes of mail: First-Class Mail, which
included letters; Second-Class Mail for publications issued at regular periods; and
Third-Class Mail, which includes all other mail.

The PRA signed by President Richard Nixon on August 12, 1970, replaced the cabinet-
level POD with the independent Postal Service and established an independent Postal
Rate Commission. The PRA took effect on July 1, 1971. At this time, the POD was
reorganized as a quasi-independent corporation of the federal government and acquired
its present name. The Postal Service is self-sufficient and has not directly received
taxpayer dollars since the early 1980s, with a few minor exceptions.

Historically, the Postal Service’s business model relied on rising First-Class Mail®
volume to cover the cost of operating the expanding delivery network. However, since
2007, First-Class Mail volume has decreased by more than 18.1 billion pieces, while the
delivery network has expanded by more than 2.9 million new delivery points. The
decline in First-Class Mail volume is due, in large part, to electronic diversion as
businesses, non-profit organizations, governments, and households increasingly rely on
e-mail and other electronic means to conduct financial transactions and send
correspondence. This dynamic, understandably, was not anticipated in the 1970
business model.

On December 20, 2006, President George W. Bush signed the Postal Act of 2006 into
law. The Postal Act of 2006 transformed the Postal Rate Commission into the Postal
Regulatory Commission (PRC) and assigned significant new responsibilities to the
agency. It requires the PRC to develop and maintain regulations for a modern system of
rate regulation. The Postal Act of 2006 also assigned new and continuing oversight
responsibilities to the PRC, including annual determinations of Postal Service
compliance with applicable laws, development of accounting practices and procedures
for the Postal Service, review of the universal service obligation, and assurance of
transparency through periodic reports. New enforcement tools include subpoena power
and the authority to direct the Postal Service to adjust rates and take other remedial
action and levy fines in cases of deliberate noncompliance with applicable postal laws.




                                                 10
Postal Service Pricing Strategy                                                  CI-AR-12-002



The intent of the Postal Act of 2006 was to design a modern pricing and regulatory
system to increase predictability and reduce administrative burdens on customer,
potential consumers, and employees. This legislation allows the Postal Service the
ability to streamline pricing and classification, retain excess revenue, compete fairly in
the marketplace, and respond effectively to economic conditions.

The Postal Act of 2006 resulted in several changes to the Postal Service’s pricing
structure. Specifically this law requires:

    Separation of cost between market-dominant and competitive products.

    Replacement of the cost-of-service style pricing system with a price-cap regime in
     which average annual price increases for each mail class are not to exceed the
     overall consumer price inflation growth measured by CPI-U index.

    Elimination of the PRA break-even requirement, allowing retention of excess
     generated revenue.

    Postal Service price discounts that do not surpass the calculated work-sharing
     related cost avoidance.

ODIS-RPW provides the official RPW estimates for domestic products reported in the
Postal Service’s Annual Report. Furthermore, the Postal Service uses ODIS-RPW test
data to advise senior management on budgeting and planning issues and to plan the
Postal Service budget based on forecasts of mail volume, workload, and overall
productivity. The data are also used to monitor productivity increases associated with
automation programs, assess deviations of actual volume from projected volume, and
analyze other major Postal Service activities affecting costs and revenue.

PostalOne! is a Web-based data system that provides an electronic link between a
customer’s mailing information and the Postal Service’s business mail acceptance and
induction processes. Each mailing that arrives at a postal facility is accompanied by a
postage statement (electronic or manual) that details the volume, weight, and postage
paid for the mailing by price category for each product. This data is entered into
PostalOne! and reported to various other systems, including ODIS-RPW. Approximately
65 percent of total mail volume is captured by PostalOne!.

Objective, Scope, and Methodology

Our objective is to determine the Postal Service’s adequacy and agility for managing
existing prices and introducing new prices to ensure cost coverage and protect revenue.




                                             11
Postal Service Pricing Strategy                                                 CI-AR-12-002



To accomplish our objective, we:

   Researched and analyzed the Postal Service’s DMM and Price List Notice 123 for
    strategic opportunities.

   Reviewed applicable policies and procedures and other pertinent documentation.

   Performed an analysis of pricing approaches with domestic competition.

   Reviewed Postal Service pricing for low to no volume data prices.

   Reviewed Postal Service strategy documents.

   Developed alternative pricing options for consideration by Postal Service
    management.

   Discussed the OIG’s pricing options with Postal Service Headquarters.

   Obtained public opinion using a blog titled "Reducing the Number of Prices."

We conducted this performance audit from March 2010 through December 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective(s). We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective(s). We discussed our
observations and conclusions with management officials on September 15, 2011 and
included their comments where appropriate.

We assessed the reliability of Postal Service pricing data by reviewing supporting
documentation provided by Postal Service management. We determined that the data
were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

The OIG has not performed prior audits related to this objective.




                                           12
         Postal Service Pricing Strategy                                             CI-AR-12-002



                  Appendix B: Fiscal Year 2010 Revenue, Pieces, and Weight Information

   The OIG found that, in FY 2010, parcel prices comprised 89 percent of the over
   7,600 domestic prices, but accounted for only 18 percent of Postal Service revenue and only
   2 percent of Postal Service volume. In contrast, 185 First-Class and Standard Letter prices
   (2 percent of the 7,600 domestic prices) accounted for 68 percent of Postal Service revenue
   and 86 percent of Postal Service volume.

                              Fiscal Year 2010 Revenue and Pieces Information
                                                                             Percentage of Total
Letters                              Revenue (000)        Pieces (000)          Revenue       Pieces
First Class Letters and
Cards                            $         12,752,771         28,584,912           22.86%           19.99%
First Class Presort
Letters and Cards                          15,975,346         46,225,386             28.63            32.33
Standard Letters                            9,204,304         48,298,835             16.50            33.78
Total Letters                    $         37,932,421        123,109,133           67.99%           86.10%

                                                                             Percentage of Total
Flats                                  Revenue (000)         Pieces (000)      Revenue        Pieces
First Class Flats                $         3,117,724            2,483,992        5.59%         1.74%
Standard Flats                             2,579,517            7,049,183          4.62          4.93
Bound Printed Matter
Flats                                         190,409            229,752            0.34               0.16
Periodicals                                 1,878,835          7,269,470            3.37               5.08
Total Flats                      $          7,766,485         17,032,397         13.92%             11.91%

                                                                             Percentage of Total
Parcels                                Revenue (000)         Pieces (000)       Revenue       Pieces
First Class Parcels              $         1,131,181             574,429           2.03%       0.40%
Standard Not Flat-
Machinables and Parcels                       602,318            682,403              1.08             0.48
Parcel Post                                   614,937             61,408              1.10             0.04
BPM Parcels                                   321,564            244,736              0.58             0.17
Media and Library Mail                        368,766            122,322              0.66             0.09
Express Mail                                  827,898             42,553              1.48             0.03
Priority Mail                               5,656,639            809,471             10.14             0.57
Parcel Select Mail                            503,795            268,357              0.90             0.19
Parcel Return Mail                             64,961             28,467              0.12             0.02
Total Parcels                    $         10,092,059          2,834,146           18.09%            1.98%

Total Letters, Flats, and
Parcels                          $         55,790,965        142,975,676           100.0%           100.0%


                                                        13
Postal Service Pricing Strategy                                                                      CI-AR-12-002



                                Appendix C: OIG Sample Pricing Table

As a result of our audit, the OIG developed a sample pricing table, which we provided to
management. We created the table by combining some existing Postal Service price
categories and looking at opportunities to streamline other areas for easier customer
and employee use. The sample pricing table reduces the total number of domestic
prices by approximately 97 percent for letters, flats, parcels, and additional services. We
recognize pricing will need to be revenue neutral. We also recognize that there are
always perceived winners and losers with pricing changes.

In our sample pricing, we began by pricing letters and flats by weight (ounces) and
parcels by using a flat rate box size concept. We used flat rate box pricing as a model
because of its recent success in increasing revenue. As the vice president, Shipping
Services, noted; ―. . .flat rate boxes continue to attract business and residential
shippers. . .[and]. . .they’re a key revenue generator.‖13

Other important concepts include:

      First-Class Letter Mail and Standard Letter Mail are considered Letter Mail.

      Postcards are included as Letter Mail.

      All letters weighing above 3.5 ounces are considered Flat Mail.

      Letter dimensions remain unchanged for letters and flats.

      Post offices would accept up to 1,000 pieces of letter mail and over 1,000 pieces
       would be entered at designated acceptance locations.

Our pricing table is categorized by:

      Service Delivery.
       o Zone prices are averaged.
            1 to 3-Day Service.
            2- to 9-Day Service (similar to Standard Mail).
             o Non profit.

             o For profit.


      Guaranteed Delivery.
       o Zone prices are averaged.
           Overnight Service.
           3-Day Service.




13
     USPS News Link. November 29, 2010, ―Anything but Flat, Flat Rate Box Enjoys a Record-Setting October.‖


                                                         14
Postal Service Pricing Strategy                         CI-AR-12-002



   Special Services include, but are not limited to:
    o Sunday/Holiday Delivery.
    o Certified Mail.
    o Restricted Delivery.
    o Signature Confirmation.
    o Return Receipt.




                                             15
Postal Service Pricing Strategy                                                CI-AR-12-002



            Appendix D: OIG Pricing Blog “Reducing the Number of Prices”

The OIG uses blogs to gather ideas from Postal Service employees and customers,
colleagues in the Inspector General community, colleagues from other national
Postal Service audit and investigative organizations, and the general public. We do this
to make our audits as open and transparent as possible and encourage stakeholders to
participate on our audits whenever possible.

Our blog was titled "Reducing the Number of Prices." In total, the blog had
128 respondents, with 89 percent indicating the Postal Service should streamline the
DMM and pricing.

Which of the following options should the Postal         Number of        Percentage of
Service consider?                                       ―YES‖ Votes        Total Votes
      Keep the DMM pricing as is                                    4                3%
      Streamline the DMM and its pricing                          114                  89
      Include more information in the DMM and                      10                   8
      offer more pricing opportunities
Total                                                             128               100%

Further, one blogger commented that the Postal Service’s price structure was mimicking
the U.S. Tax Code. Also, mailers, employees, and the public do not understand all of the
prices the Postal Service offers. Another blogger commented that proponents of rate
simplification should know that complex rates aren’t necessarily a bad thing for mailers
and that most large mailers calculate their postage with a computer rather than paper
and pencil.




                                            16
Postal Service Pricing Strategy                                 CI-AR-12-002



                            Appendix E: Management’s Comments




                                           17
Postal Service Pricing Strategy        CI-AR-12-002




                                  18
Postal Service Pricing Strategy        CI-AR-12-002




                                  19
